<html>
<title> - FEDERAL ELECTRONIC RECORDS MANAGEMENT: WHAT IS THE PLAN? WHAT IS OUR PROGRESS?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





 FEDERAL ELECTRONIC RECORDS MANAGEMENT: WHAT IS THE PLAN? WHAT IS OUR 
                               PROGRESS?

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TECHNOLOGY, INFORMATION
                POLICY, INTERGOVERNMENTAL RELATIONS AND
                               THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 8, 2003

                               __________

                           Serial No. 108-132

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

93-006              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Technology, Information Policy, Intergovernmental 
                        Relations and the Census

                   ADAM H. PUTNAM, Florida, Chairman
CANDICE S. MILLER, Michigan          WM. LACY CLAY, Missouri
DOUG OSE, California                 DIANE E. WATSON, California
TIM MURPHY, Pennsylvania             STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                        Bob Dix, Staff Director
                 Lori Martin, Professional Staff Member
                      Ursula Wojciechowski, Clerk
           David McMillen, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 8, 2003.....................................     1
Statement of:
    Carlin, John W., Archivist of the United States, National 
      Archives and Records Administration; L. Reynolds Cahoon, 
      Chief Information Officer, NARA; Harriet Riofrio, E-Records 
      Management Policy and Program Lead, U.S. Department of 
      Defense; and Linda Koontz, Director, Information Management 
      Issues, U.S. General Accounting Office.....................    11
    Sprehe, J. Timothy, president, Sprehe Information Management 
      Associates; Robert F. Nawrocki, CRM, director, Records 
      Management and Imagining Services Division, Library of 
      Virginia; Caryn Wojcik, State Government Records 
      Management, Michigan; and Dr. Richard Lyusakowski, 
      director, Collaborative Electronic Notebook Systems 
      Association [CENSA]........................................    86
Letters, statements, etc., submitted for the record by:
    Cahoon, Reynolds, Chief Information Officer, NARA, prepared 
      statement of...............................................    26
    Carlin, John W., Archivist of the United States, National 
      Archives and Records Administration, prepared statement of.    13
    Koontz, Linda, Director, Information Management Issues, U.S. 
      General Accounting Office, prepared statement of...........    51
    Miller, Hon. Candice S., a Representative in Congress from 
      the State of Michigan, prepared statement of...............     7
    Nawrocki, Robert F., CRM, director, Records Management and 
      Imagining Services Division, Library of Virginia, prepared 
      statement of...............................................    95
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida, prepared statement of....................     3
    Riofrio, Harriet, E-Records Management Policy and Program 
      Lead, U.S. Department of Defense, prepared statement of....    40
    Sprehe, J. Timothy, president, Sprehe Information Management 
      Associates, prepared statement of..........................    89
    Wojcik, Caryn, State Government Records Management, Michigan, 
      prepared statement of......................................   101

 
 FEDERAL ELECTRONIC RECORDS MANAGEMENT: WHAT IS THE PLAN? WHAT IS OUR 
                               PROGRESS?

                              ----------                              


                         TUESDAY, JULY 8, 2003

                  House of Representatives,
   Subcommittee on Technology, Information Policy, 
        Intergovernmental Relations and the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Adam Putnam 
(chairman of the subcommittee) presiding.
    Present: Representatives Putnam, and Miller.
    Staff present: Bob Dix, staff director; John Hambel, 
counsel; Lori Martin, professional staff member; Ursula 
Wojciechowski, clerk; David McMillen, minority professional 
staff member; and Jean Gosa, minority assistant clerk.
    Mr. Putnam. Good morning. A quorum being present, this 
hearing of the Subcommittee on Technology, Information Policy, 
Intergovernmental Relations and the Census will come to order. 
I want to welcome everyone to today's hearing entitled, 
``Federal Electronic Records Management, What is the Plan and 
What is our Progress?''
    In today's world of emerging technology, Federal agencies 
are conducting more and more of their business through 
electronic means. As an example, e-mail has become a primary 
form of communication, often used now in place of the telephone 
and as a vehicle for sending memos or other important 
documents. While this has increased the efficiency and 
productivity of the modern day office, it has also presented a 
new set of challenges to the issue of records management and 
preservation as the Federal Government moves from being paper 
based to more and more electronic and technology based.
    The importance of records management and preservation has a 
long history. Not only is the legacy of our history at issue, 
but this issue has a direct impact on the continuing ability of 
the Federal agencies to function properly. Without a 
comprehensive and cohesive strategy, records can be misplaced 
or even lost. This not only has the potential to hinder day-to-
day operations, but also has potentially significant 
ramifications on the national archival process.
    The management of all Federal records and now particularly 
electronically generated records creates new and additional 
challenges. Examples include what types of electronic records 
need to be saved, what process or technology should be utilized 
for their preservation, how will the retrieval of these records 
be guaranteed and through what process in the future. This 
whole issue raises another set of questions as well, what 
happens with all of the existing records in their various 
formats? How many, if any, of these existing records will be 
converted to an emerging process or technology? How will all of 
these records and exhibits continue to be preserved, and how 
are these records being cataloged? And what is the magnitude of 
the process required to retrieve an existing record and how are 
classified versus nonclassified records treated?
    The Federal Records Act has provided the National Archives 
and Records Management Agency with the responsibility for 
oversight of records management within the Federal Government. 
Under the provisions of FRA, NARA is to provide guidance and 
oversight to Federal agencies as they execute the electronic 
records strategy. Certainly having a common set of goals and 
objectives in those strategies will ensure consistency and 
continuity in this process.
    Presently, NARA is working to develop the necessary tools 
to support that guidance. A number of projects including the 
development of their electronic records archive program and 
NARA's leadership role as a managing partner of the Electronic 
Records Management E-government Initiative will put them in a 
position to help define the national standards for electronic 
records management.
    At the same time, Federal agencies themselves must begin to 
work more diligently in making electronic records management a 
higher priority, many agencies have not fulfilled their 
obligations to confer with NARA about the progress of their 
records management plans. While NARA has been charged with 
oversight responsibility regarding these matters, they have 
been provided little, if any authority, to enforce compliance.
    As it currently stands, it is the responsibility of each 
individual agency to develop and implement an electronic 
records management strategy. One of the areas we will explore 
at this hearing is whether the authority and accountability 
that presently exists related to this issue is sufficient to 
get the job done.
    These are just some of the challenges facing the subject of 
Federal electronic records management. Through the research and 
preparation for this hearing, the subcommittee has come to 
recognize the enormity of the task. It is our objective to 
learn from a variety of stakeholders, institution, academic, 
government and private sector, and to work with NARA together 
with Federal agencies to determine the progress in developing 
and implementing an effective management strategy.
    Today's hearing can be viewed live via Webcast by going to 
reform.house.gov and clicking on the link under live committee 
broadcast. It is an important hearing, and we have two 
distinguished panels of witnesses, and we are fortunate to have 
a vice chairman of this subcommittee who served as the 
Secretary of State in Michigan and has worked extensively on 
this committee in a number of issues, but particularly in the 
modernization and the utilization of technology to improve the 
efficiencies of government operations.
    [The prepared statement of Hon. Adam H. Putnam follows:]

    [GRAPHIC] [TIFF OMITTED] T3006.001
    
    [GRAPHIC] [TIFF OMITTED] T3006.002
    
    Mr. Putnam. So I now yield for her opening comments to the 
vice chairwoman of the subcommittee, the gentlelady from 
Michigan, Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman. I appreciate you 
holding this hearing today. I'm sorry, I was just a few minutes 
late. I know you like to start your hearings on time. We should 
have a hearing on the elevators in this building I think 
someday. But I certainly appreciate your commitment to 
exploring ways, examining ways to improve the business of the 
Federal Government. I think that the challenge facing the 
Federal Government in regards to electronic records management 
is certainly very complex. It is extremely daunting. The 
National Archives and Records Administration [NARA], as we 
commonly call it, possesses the responsibility to provide 
guidance and oversight to Federal agencies regarding the 
records management strategies. Under current law, Federal 
agencies are required to submit record schedules to NARA, which 
must be approved and then, in turn, to allow NARA to aid 
agencies in their records management strategy implementation.
    However, as with so many other statutory requirements 
concerning the modernization and the improved efficiency of 
government, many Federal agencies are not cooperating. NARA has 
been working for years on developing an effective electronic 
records management policy, but the responsibility of 
implementing the strategy really falls directly on each 
individual agency, quite frankly.
    Today we will be examining the strategy that NARA has 
developed and the progress that has been made. I feel it is 
very important to also examine the successes and the failures 
of Federal agencies in regards to this enormous task. Though 
each agency is responsible for its own success, the valuable 
lessons learned throughout government at all levels must be 
utilized as an important resource. For this reason, I'm very 
pleased that we're going to be hearing from witnesses at both 
the Federal and State levels of government, and then 
representatives from the private sector also.
    As the Federal Government progresses into the 21st century 
and moves to modernize its operations, a problem has arisen in 
that the Federal agencies seem to place different priorities on 
utilizing technology. Some agencies have seen the benefits of 
implementing substantial technologies, while others seem to be 
stuck in a time warp, stuck in the past. Something needs to be 
done to force these particular agencies to realize the 
importance of modernizing their records management.
    The current scenario is simply more than an adjustment to 
the current frame of thinking. It also includes agencies not 
complying by federally mandated statutes. Currently, there is 
no real enforcement mechanism that forces agencies to abide by 
statutes outlined by the Federal Records Act and to submit 
schedules required by NARA. Many Federal agencies have not 
placed any degree of priority on electronic records management, 
and this has resulted, of course, in a wide variety of 
problems.
    I notice Linda Koontz, in her written testimony, states 
that NARA has developed a strategy for raising awareness 
amongst agency management of the need to place electronic 
records management at a very high priority, and I'm also--I 
found that very encouraging. I'm also looking forward to Mr. 
Carlin's testimony also, hoping that he can elaborate on the 
measures taken by NARA within the last year to impress upon 
agency officials the need to implement an effective management 
strategy, and I certainly especially want to thank Caryn 
Wojcik, who will be testifying in the second panel taking some 
time to testify before our subcommittee today, as the chairman 
mentioned, during my tenure as Michigan Secretary of State, the 
archives were sort of under the umbrella of the Michigan 
Secretary of State's office, and we think because of the great 
people that led our agency there, our State's archiving and 
records management projects, Michigan has certainly become one 
of the national leaders by incorporating a lot of information 
technology into the everyday activities of government, and in 
addition, our State managers have been working very hard to 
ensure that the State is prepared as its technology evolves 
well into the 21st century.
    So I hope that Ms. Wojcik will be able to inform the 
subcommittee of some of the different things that have 
happened. Since I've been gone, I know you're going like rapid 
fire there as well. But Federal agencies certainly must utilize 
the knowledge acquired by State governments so we're not 
reinventing the wheel. Although electronic records management 
at the Federal level is very daunting, as we say, there are 
resources available that can enrich the process, and again I 
reiterate my point that these Federal agencies must make a 
concerted effort to implement a successful management policy. 
As records sit untouched or the technology that has been used 
to create these records becomes obsolete, it is certainly 
imperative that action be taken and agencies prepare for the 
future, and certainly it is important that Congress play a very 
active role in ensuring that electronic records management be 
implemented effectively and in a timely manner as well, so I'm 
looking forward to all of the testimony from the witnesses 
today and I certainly want to thank you all for coming and 
thank the chairman for calling this hearing. Thank you.
    [The prepared statement of Hon. Candice S. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T3006.003
    
    [GRAPHIC] [TIFF OMITTED] T3006.004
    
    [GRAPHIC] [TIFF OMITTED] T3006.005
    
    Mr. Putnam. Thank you, Mrs. Miller.
    We'll now begin with our first panel of witnesses. Each has 
kindly prepared written testimony which will be included in the 
record of this hearing, and I ask each of you to summarize your 
thoughts in a 5-minute presentation to give us ample time for 
questions and dialog. You'll notice that there's a timer with a 
light on the table in front of you. The green light means begin 
your remarks, the point that you see the yellow light, we ask 
you to sum up, and at the red light, please bring it to a 
close. In order to be sensitive to everyone's time schedule, we 
ask that witnesses cooperate with us in adhering to the time 
system.
    As is the custom with the Government Reform Committee, 
we'll swear in our witnesses. I would ask the first panel of 
witnesses to stand and raise your right hands, and if you're 
accompanied by anyone who will be called upon to answer the 
questions or elaborate on a question, if they would stand as 
well, please.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record that the witnesses 
responded in the affirmative.
    Our first witness this morning is Mr. John Carlin. As 
archivist of the United States, John Carlin is the head of the 
National Archives and Records Administration, an independent 
agency of the Federal Government with more than 2,900 employees 
and 33 facilities throughout the Nation. NARA is the Nation's 
recordkeeper. Its mission is to ensure for the citizen and the 
public servant, for the President and the Congress and the 
courts, ready access to essential evidence.
    Mr. Carlin was appointed archivist in 1995 by President 
Clinton. In 1998, he launched a major initiative to build the 
Electronic Records Archives to preserve and provide access to 
virtually any type of electronic record created anywhere in the 
Federal Government.
    Prior to being named archivist, Mr. Carlin had a 
distinguished career in politics, business and education. A 
native Kansan, he first entered public service in 1971 by 
serving in the legislature of the State of Kansas. He became 
Speaker of that State's House of Representatives, and in 1978, 
won election to the Kansas Governorship serving two terms 
through January 1987. His fellow Governors elected him chairman 
of the National Governors Association in 1984. Following his 
political career, he joined the faculty of Wichita State 
University teaching graduate courses in public administration.
    In 1987 he received an honorary doctorate of laws degree 
from his alma mater, Kansas State. As Governor of Kansas, he 
strongly supported the Kansas State Historical Society and the 
State archives within it, in which he deposited his own 
gubernatorial papers. Before heading NARA, he served on the 
National Archives Foundation Board.
    Governor Carlin, we welcome you to the subcommittee. You're 
recognized.

 STATEMENTS OF JOHN W. CARLIN, ARCHIVIST OF THE UNITED STATES, 
   NATIONAL ARCHIVES AND RECORDS ADMINISTRATION; L. REYNOLDS 
  CAHOON, CHIEF INFORMATION OFFICER, NARA; HARRIET RIOFRIO, E-
RECORDS MANAGEMENT POLICY AND PROGRAM LEAD, U.S. DEPARTMENT OF 
  DEFENSE; AND LINDA KOONTZ, DIRECTOR, INFORMATION MANAGEMENT 
             ISSUES, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Carlin. Thank you, Mr. Chairman. I wish to express to 
you our real appreciation for you holding this important 
hearing today on the subject of----
    Mr. Putnam. If you could just turn the mic on, please.
    Mr. Carlin. That might help.
    Mr. Putnam. So that we can have it for the archives.
    Mr. Carlin. That is a little embarrassing. We're going to 
talk about technology today, and I can't turn the mic on.
    We're still appreciative of your holding this hearing 
today. Obviously, your knowledge of technology has been clearly 
demonstrated, Mr. Chairman, in your brief tenure as the Chair 
of this committee, and I know your Vice Chair, a former 
Secretary of State, likewise has great experience, and we 
appreciate the opportunity to work with both of you.
    As you all know, the rapid evolution of information 
technology has produced huge volumes of diverse and complex 
digital records. These electronic records pose the biggest 
challenge ever to keeping records in the Federal Government. 
When you combine the rate of technological obsolescence with 
the explosive number of electronic records being created by the 
government every day, then you can begin to imagine the 
challenge that we face.
    In the National Archives and Presidential libraries, NARA 
is responsible for preserving and providing sustained access to 
records of all three branches of the Federal Government, and 
our challenge is magnified by the need to preserve and deliver 
authentic records for generations of Americans who will not be 
born for 100 years or more. The National Archives and Records 
Administration's statutory responsibilities relating to 
electronic records management are rooted in the Federal Records 
Act, which is codified under Title 44 of the United States 
Code.
    Under the statute, the archivist shall ``provide guidance 
and assistance to Federal agencies with respect to ensuring 
adequate and proper documentation of the policies and 
transactions of the Federal Government and ensuring proper 
records disposition.''
    The archivist also has the responsibilities to approve the 
disposal of any temporary Federal record and to take into the 
National Archives of the U.S. Federal records that ``have 
sufficient historical or other value to warrant their continued 
preservation by the U.S. Government.'' And these statutory 
responsibilities apply to electronic records as well as records 
in other formats.
    All this we have summed up in a simple succinct statement 
of mission which you have already stated. The mission of the 
National Archives and Records Administration is to ensure for 
the citizen and the public servant, for the President and the 
Congress and the courts, ready access to essential evidence.
    The scope of NARA's responsibilities compounds the 
challenge, for the historically valuable electronic records 
that come to the National Archives and the Presidential 
libraries come from applications deployed across the entire 
Federal Government. So they can be virtually in any digital 
format, from word processing and e-mail, to Web sites, data 
bases, geographic information systems, digital photography and 
motion video, computer-assisted engineering or manufacturing 
applications, laboratory simulations, satellite observations 
and many others.
    Within the past decade, there has been significant progress 
in developing software products which enable agencies to apply 
records management discipline to electronic records that are 
typically produced on individual desktops. An example, the 
Department of Defense has developed a program for certifying 
these products as complying with Federal records management 
requirements. NARA has worked closely with the Defense 
Department on this program, and has endorsed its use by all 
Federal agencies.
    However, implementing such a product is a time and 
resource-intensive effort. As a result, agencies are trying to 
manage many records and paper filing systems despite the fact 
that some of the new electronic formats cannot be rendered 
well, or, in some cases, at all in a paper environment.
    Through the E-government Electronic Records Management 
Initiative, NARA works with its agency partners, in providing 
guidance on electronic records management that is applicable 
governmentwide, and will enable agencies to transfer their 
permanent records to NARA in a variety of data types and 
formats.
    In a few moments, Mr. Reynolds Cahoon, the assistant 
archivist for Human Resources and Information Service, will 
give you details on our programs and initiatives designed to 
effectively manage electronic records throughout their life 
cycle.
    In closing, I'd like to thank you again for your interest 
in electronic records and the challenges they pose for agencies 
the government as a whole and our Nation. The records of our 
country have played a vital role in our history, and it is 
imperative that we find solutions for electronic records. For 
I'm sure you will all agree with me when I say that records 
matter for our citizens, our government and the future of our 
democracy.
    Thank you, Mr. Chairman.
    Mr. Putnam. Thank you very much, Governor.
    [The prepared statement of Mr. Carlin follows:]

    [GRAPHIC] [TIFF OMITTED] T3006.006
    
    [GRAPHIC] [TIFF OMITTED] T3006.007
    
    [GRAPHIC] [TIFF OMITTED] T3006.008
    
    [GRAPHIC] [TIFF OMITTED] T3006.009
    
    [GRAPHIC] [TIFF OMITTED] T3006.010
    
    [GRAPHIC] [TIFF OMITTED] T3006.011
    
    [GRAPHIC] [TIFF OMITTED] T3006.012
    
    [GRAPHIC] [TIFF OMITTED] T3006.013
    
    [GRAPHIC] [TIFF OMITTED] T3006.014
    
    [GRAPHIC] [TIFF OMITTED] T3006.015
    
    [GRAPHIC] [TIFF OMITTED] T3006.016
    
    Mr. Putnam. Our next witness is Reynolds Cahoon. Mr. Cahoon 
was appointed Assistant Archivist for Human Resources and 
Information Services and Chief Information Officer at the 
National Archives and Records Administration in February 1996. 
His responsibilities include the Nationwide Information 
Technology Program, oversight of NARA's Electronic Records 
Archives Program, human resources staff and organizational 
development services, NARA's Record Management Program.
    Mr. Cahoon currently serves as cochair of the component 
subcommittee of the Federal CIO Council's Architecture and 
Integration Committee, and as a commissioner for the 
International Commission for the Accreditation of Professional 
Genealogists. Prior to his appointment, Mr. Cahoon served as 
managing director of the family history department of the 
Church of Jesus Christ of Latter Day Saints.
    In that position he had global operating responsibility for 
one of the world's largest genealogical research support 
institutions. He previously served as the director of 
administration and controller and is the director of projects 
and planning for the Family History Department. He also served 
on the board of the Civil War Trust and was a member of the 
International Council and Archives Committee on archival 
automation from 1986 to 1997. Welcome to the subcommittee. 
You're recognized.
    Mr. Cahoon. Thank you. I join the archivist in thanking 
you, Chairman Putnam, for recognizing the importance of 
electronic records management and for holding this hearing. 
NARA's plans for electronic records management aim at making it 
an integral part of electronic government and at delivering 
electronic records to future generations. Both records 
management support of current government business and 
preservation of electronic records for the long term face the 
technical problem of making digital information assets 
independent of the specific technologies used to process, 
store, and communicate them.
    Key objectives of the E-government Act of 2002 depend on 
how well the government creates, retains, and manages records 
that document its decisions and its performance.
    Ultimately, for the trustworthiness of the government, 
these assets must remain authentic and reliable in the short 
term as they move between different systems and in the long 
term when they are retrieved by our great grandchildren and 
their descendents. To respond to the challenge in a sustainable 
way, we have launched three major interrelated initiatives:
    Our first initiative, redesign of Federal Records 
Management, builds a foundation that aims to make records 
management a normal and integral part of agency's asset and 
risk management processes and add real value to the conduct of 
government business. We have developed and are working on 14 
interconnective strategies to improve records management. 
Several of the strategies including flexible scheduling and 
resource allocation are being prototyped by partner agencies. 
Implementation plans for five more are currently being 
developed.
    In our second initiative, the electronic records management 
project in the e-government portfolio, we are working with 
other agencies to provide guidance on electronic records, tools 
for agencies to manage them, and more format options for 
agencies to transfer electronic records to NARA. We have 
produced capital planning guidance on electronic records 
management application acquisition. We have promulgated and 
endorsed version 2 of the Department of Defense 5015.2 
standard. We have authorized two new transfer technologies, 
digital linear tape and file transfer protocol and three new 
data formats for transfer of electronic records to NARA and, 
finally, initiated automating the process of transferring 
records to NARA using extensible markup language [XML].
    In addition, NARA will lead acquisition of records 
management components to be included in the Federal enterprise 
architecture service component infrastructure. Service 
component software can be reused and leveraged in many 
different systems enabling agencies to integrate management and 
use of electronic records within the systems they actually use 
to transact business.
    The electronic records archives must be scalable--excuse 
me. In our third initiative, the Electronic Records Archive 
Program will authentically preserve and provide access to any 
kind of electronic record free from dependency on any specific 
hardware or software enabling NARA to carry out its mission 
into the future. The Electronic Records Archive must be 
scalable and evolvable to accommodate both growth in volume and 
new types of electronic records and take advantage of 
improvements in technology. We will implement a flexible 
approach starting with physical preservation of electronic 
records in their original formats and, where appropriate, 
converting them to more durable or more accessible formats.
    In the long-term, electronic government and electronic 
business will drive the emergence of standards, products, and 
services that make information assets independent of specific 
technology. We expect agencies will increasingly adopt open-
standard infrastructure independent formats, such as XML, which 
are also suitable for long-term preservation and access.
    In the ERA program, we have spent the last 2 years 
developing the management infrastructure to ensure proper 
stewardship of this critical program with an eye to its 
contribution to both electronic government and to posterity. We 
are completing requirements development and refining our 
acquisition strategy with the target of issuing a request for 
proposals by the end of this calendar year. In this process we 
have engaged both our customers and the IT industry in an 
extensive dialog.
    Facing the challenge of electronic records is a difficult, 
serious endeavor, but we have no alternative. To this 
committee, I respectfully testify that we, as the National 
Archives, face the challenge squarely and with full purpose and 
resolve to leave for our descendents a trustworthy record of 
our turn on this planet. Thank you, Mr. Chairman. I'd be happy 
to answer any questions you might have or your subcommittee 
might have.
    Mr. Putnam. Thank you very much.
    [The prepared statement of Mr. Cahoon follows:]

    [GRAPHIC] [TIFF OMITTED] T3006.017
    
    [GRAPHIC] [TIFF OMITTED] T3006.018
    
    [GRAPHIC] [TIFF OMITTED] T3006.019
    
    [GRAPHIC] [TIFF OMITTED] T3006.020
    
    [GRAPHIC] [TIFF OMITTED] T3006.021
    
    [GRAPHIC] [TIFF OMITTED] T3006.022
    
    [GRAPHIC] [TIFF OMITTED] T3006.023
    
    [GRAPHIC] [TIFF OMITTED] T3006.024
    
    [GRAPHIC] [TIFF OMITTED] T3006.025
    
    [GRAPHIC] [TIFF OMITTED] T3006.026
    
    [GRAPHIC] [TIFF OMITTED] T3006.027
    
    Mr. Putnam. Our next witness is Ms. Harriet Riofrio. Ms. 
Riofrio serves as electronic records management policy lead and 
senior staff officer for knowledge management for the Office of 
Assistant Secretary of Defense for Networks and Information 
Integration. You must have the longest business card of anybody 
in government. You have to flip it over to read what your 
address is.
    In this capacity her primary role is to assist the deputy 
CIO and director IM to enable netcentric process change 
throughout the Department of Defense. Duties include strategic 
planning for and application of the principles and techniques 
of ERM and KM. She is responsible for the management and 
evolution of the Department of Defense 5015.2 STD--only the 
Department of Defense can come up with this stuff--and the 
Records Management Application Certification Program at the 
Joint Interoperability Test Center. She represents DOD and the 
DOD-NARA partnership that maintains as its objective the 
development of DOD standard to improve records management 
processes and electronic transfer of records between the two 
agencies.
    She also originated and leads the DOD-KM community of 
practice. We did our best to include every conceivable acronym 
in your biography. Previously, Ms. Riofrio headed the Executive 
and Information System and Microtechnology Group at HQ Defense 
Logistics Agency, where she was responsible for designing and 
implementing innovative technology solutions to include major 
agency executive information and decision support systems.
    She has numerous speaking engagements, awards and 
publications to her credit. She was born here in Washington, 
DC, and received a Masters Degree in 1980. Ms. Riofrio is known 
as an innovator and thought leader in business process design, 
new technology insertion and management disciplines. She joined 
the OSD staff in 1997. Welcome to the subcommittee. Hopefully 
your testimony will be more clear than your biography.
    Ms. Riofrio. It took coming here to realize how many 
acronyms we use. I apologize for that.
    Mr. Chairman and members of the subcommittee, I am pleased 
to appear before the subcommittee this afternoon to describe 
the evolution of the Department of Defense Electronic Records 
Management Program and standard, culminating in its current 
relevance to and integration with our plans for advancing the 
Department to a netcentric government environment. 
Netcentricity will provide an unprecedented accessibility and 
usability of data to include departmental records in every 
electronic media. Through the development of our Global 
Information Grid Enterprise Services Initiative, we will be 
converting our information infrastructure from a platform based 
to a netcentric environment.
    We will be applying a metatagging standard to DOD data in 
general and facilitating its just-in-time discovery. Official 
records are a critical part of our enterprise knowledge base. 
The intent is to make them more visible and usable while 
utilizing sound content management principles to ensure their 
proper storage, preservation and protection.
    I will describe how our approach to electronic records 
management has been developed and applied to date and how it 
represents one of several foundational disciplines converging 
to achieve our vision of enterprise wide netcentricity.
    Looking back, it seems we have been working for the last 10 
years to ready our records management processes for 
netcentricity. In 1993, records management was analyzed as part 
of a functional process improvement initiative. A baseline 
analysis of records management in the Department was developed. 
This work culminated in the first version of the DOD 5015.2 
standard that was signed in 1997. The focus of the standard has 
been to prescribe essential records automation functions 
consistent with the law and regulations. The intent has been to 
help DOD components bid, test or buy compliant records 
management application software. Its objective has been to be 
unambiguous and not to dictate design.
    In 1998, we began the process of developing the second 
revision to the standard. We added a section on national 
security classification markings, and the declassification 
schedule as requested by the Intel community. We also included 
recommendations from NARA. We added a requirement for 
information related to section 508 of the Federal 
Rehabilitation Act. Version 2 of DOD 5015.2 standard was signed 
in June 2002.
    Currently, the Joint Interoperability Test Command [JITC], 
of the Defense Information Systems Agency, manages the 
compliance testing process for the DOD standard. This testing 
is mandatory for DOD and endorsed by NARA. At this time, JITC 
has certified approximately 43 records management applications 
as compliant to our standard.
    An example of how this standards process has begun to 
influence our enterprise-wide environment can be seen in its 
application to the Navy Marine Corps Intranet. The Navy and 
Marine Corps are looking to merge records and document 
management for over 350,000 users which they claim will make 
the Department of the Navy the world's largest electronic 
records management customer.
    In 2003, DOD formally partnered with NARA on electronic 
records management as part of the President's E-government 
initiatives. We are working to certify direct export from RMA's 
from record management applications to NARA to include 
coordination of transfer and specification for transfer file 
format. This effort, especially upon its adoption by the 
Federal community, has the potential for substantial 
improvements in the timeliness, cost and quality of permanent 
records transfers throughout the government.
    As we begin to operationalize netcentricity through our 
Global Information Grid Enterprise Service Initiative, we are 
cognizant of the need to assure electronic records management 
becomes a part of the Department's enterprise services.
    In summary, we are finding that the DOD standard could not 
be more opportune. It is being sought after and used by some of 
our States, by the Federal Government and even the 
international community. It is open enough to encompass 
different functions and infrastructures but serves to assure 
consistently useful electronic records products. We look 
forward to planning for integration of ERM into our new 
netcentric environment and working closely with the Federal 
community to develop solutions for our common data and records 
problems.
    We welcome your support as we continue to shape the future 
of this critical area together. Thank you.
    Mr. Putnam. Thank you very much.
    [The prepared statement of Ms. Riofrio follows:]

    [GRAPHIC] [TIFF OMITTED] T3006.028
    
    [GRAPHIC] [TIFF OMITTED] T3006.029
    
    [GRAPHIC] [TIFF OMITTED] T3006.030
    
    [GRAPHIC] [TIFF OMITTED] T3006.031
    
    [GRAPHIC] [TIFF OMITTED] T3006.032
    
    [GRAPHIC] [TIFF OMITTED] T3006.033
    
    [GRAPHIC] [TIFF OMITTED] T3006.034
    
    [GRAPHIC] [TIFF OMITTED] T3006.035
    
    [GRAPHIC] [TIFF OMITTED] T3006.036
    
    Mr. Putnam. Our final panelist for panel one is Ms. Linda 
Koontz. Ms. Koontz is Director of Information Management Issues 
at the U.S. General Accounting Office. She is responsible for 
issues concerning the collection, use and dissemination of 
government information in an era of rapidly changing 
technology. Recently she has been heavily involved in directing 
studies concerning e-government, privacy, electronic records 
management and governmentwide information dissemination issues. 
She is a frequent panelist before the subcommittee, and we 
always appreciate your insight and support. You're recognized 
for your testimony.
    Ms. Koontz. Thank you, Mr. Chairman. I appreciate the 
opportunity to participate in the subcommittee's hearing on the 
challenges of records management in an electronic era. As you 
know, agencies are increasingly moving to an operational 
environment in which electronic rather than paper records are 
used to document their activities and business processes. This 
migration is likely to accelerate in light of the E-government 
Act of 2002 which encourages the expansion of electronic 
government. This transformation is leading to improvements in 
the way Federal agencies work and interact with each other and 
with the public. However, the rapid evolution of information 
technology is creating challenges in managing and preserving 
electronic records. Complex electronic records are increasingly 
being created in a decentralized environment and in volumes 
that make it difficult to organize them and make them 
accessible.
    Further storage media themselves are affected by the dual 
problems of obsolescence and deterioration. For example, few 
computers today have disk drives that can read information on 8 
or 5\1/4\ diskettes, even if the diskettes themselves remain 
readable. These problems are compounded as computer hardware 
and application software become obsolete. They may leave behind 
electronic records that can no longer be read. Unless these 
challenges are addressed, the government will be unable to 
effectively leverage the information it has and valuable 
government information may be lost forever.
    We report last year that while NARA has responded to these 
challenges, most electronic records, including data bases of 
major Federal information systems, remain unscheduled, and 
records of historical value were not being identified and 
provided to NARA, and as a result, they were at risk of loss.
    Three factors contributed to this condition. First, NARA 
has acknowledged that its policies and processes on electronic 
records have not yet evolved to reflect the modern 
recordkeeping environment; second, records management programs 
were generally afforded low priority by Federal agencies. A 
related issue was that agency management had not given priority 
to acquiring the technology tools required to manage electronic 
records.
    Third, NARA was not performing systematic inspections of 
agency record programs. Such inspections are important as a 
means to evaluate individual agency records management 
programs, assess governmentwide progress in improving records, 
and manage and identify areas where guidance needs to be 
strengthened. We recommended that NARA develop strategies for 
raising agency management awareness of the importance of 
records management and for performing systematic inspections.
    In the last year, NARA has taken steps to improve its 
guidance and address the lack of technology tools. In response 
to our recommendations, it has devised a reasonable strategy 
for raising awareness among senior agency management. In 
addition, it has developed a comprehensive approach to 
assessing and improving agency records management programs that 
includes identification of risks and priorities and 
inspections, but it has not yet described how this will be made 
an ongoing program and an implementation plan for the strategy 
has not yet been established. Until NARA fully addressed these 
issues, the risk is increased that records management programs 
will continue to show the weaknesses that led to the scheduling 
and disposition problems that we and NARA described in our 
earlier work.
    NARA also faces significant challenges in acquiring an 
electronic record archive, an advanced system that is intended 
to address the problems associated with preserving electronic 
records and making them accessible. Specifically the plans, 
policies and practices that NARA is using to acquire the system 
do not, in many cases, conform to standards or to applicable 
Federal acquisition guidance.
    In addition, NARA is unable to track the cost and schedule 
of the product adequately. Unless NARA addresses these issues, 
the risk is increased that the system will fail to meet user's 
needs, will cost more than currently estimated and will be 
delivered later than planned. In view of these risks, we have 
recommended that NARA address weaknesses in its acquisition 
plans and project schedule.
    In conclusion, NARA and the Federal Government face 
significant challenges in managing electronic records. While 
NARA is responding to these challenges and is making progress, 
much work remains to be done to gain control over the massive 
numbers of electronic records that continue to grow and prevent 
the loss of valuable permanent records.
    That concludes my statement. I would be happy to answer any 
questions.
    Mr. Putnam. Thank you very much.
    [The prepared statement of Ms. Koontz follows:]

    [GRAPHIC] [TIFF OMITTED] T3006.037
    
    [GRAPHIC] [TIFF OMITTED] T3006.038
    
    [GRAPHIC] [TIFF OMITTED] T3006.039
    
    [GRAPHIC] [TIFF OMITTED] T3006.040
    
    [GRAPHIC] [TIFF OMITTED] T3006.041
    
    [GRAPHIC] [TIFF OMITTED] T3006.042
    
    [GRAPHIC] [TIFF OMITTED] T3006.043
    
    [GRAPHIC] [TIFF OMITTED] T3006.044
    
    [GRAPHIC] [TIFF OMITTED] T3006.045
    
    [GRAPHIC] [TIFF OMITTED] T3006.046
    
    [GRAPHIC] [TIFF OMITTED] T3006.047
    
    [GRAPHIC] [TIFF OMITTED] T3006.048
    
    [GRAPHIC] [TIFF OMITTED] T3006.049
    
    [GRAPHIC] [TIFF OMITTED] T3006.050
    
    [GRAPHIC] [TIFF OMITTED] T3006.051
    
    [GRAPHIC] [TIFF OMITTED] T3006.052
    
    [GRAPHIC] [TIFF OMITTED] T3006.053
    
    [GRAPHIC] [TIFF OMITTED] T3006.054
    
    [GRAPHIC] [TIFF OMITTED] T3006.055
    
    [GRAPHIC] [TIFF OMITTED] T3006.056
    
    [GRAPHIC] [TIFF OMITTED] T3006.057
    
    [GRAPHIC] [TIFF OMITTED] T3006.058
    
    [GRAPHIC] [TIFF OMITTED] T3006.059
    
    Mr. Putnam. I want to thank all of you for your both 
written and verbal testimony, and it has certainly set the 
table for an interesting hearing.
    Before we start peeling this onion down to several layers, 
I want to start in a very basic way. If you would, answer for 
me how you determine what records are worthy of archiving, what 
records are worthy of being kept for posterity and how much of 
that is defined in the law. What form it should be saved in and 
what the life cycle is of those forms? In other words, an old 
TSR 80 RadioShack computer disk that looks like a cassette 
tape, what is the life span of that versus a 4\1/2\ inch disk, 
3\1/2\ inch disk or microfiche, microfilm, CD ROM? How long do 
those things live in a manner that we can retrieve that 
information?
    And what process do we have for converting that? And is the 
conversion of the format in and of itself changing history? In 
other words, we wouldn't be content to have run a Xerox copy of 
the Declaration of Independence and feel like we'd saved the 
Declaration of Independence, and that is an extreme example, 
but certainly you can address that spectrum of issue.
    So that is a lot to throw out there. But Governor, if you 
could begin to attempt to address these issues for us to get us 
going.
    Mr. Carlin. By law, it is our responsibility. In fact, in 
the end, my sign-off on the scheduling of records, in practice 
we historically have worked with agencies to evaluate records 
to determine whether they should be ultimately an accession to 
the archives which works out to be 2 or 3 percent of what is 
originally created, which one should be disposed of earlier and 
how long they should be kept for appropriate business purposes 
as well as protecting rights and entitlements for 
accountability reasons and so forth. That has been a back-and-
forth with agency process, and, on any disposal, communication 
with stakeholders through a publication in the Federal 
Register.
    As indicated in testimony that you have here today, we are 
working to overhaul that process, because we know, with the 
massive size of the Federal Government, with all of the records 
now that have been created electronically, with more and more 
of them wanting to be the record copy, that we must have a more 
efficient, effective way of scheduling records. Things change 
too fast for it to be an old system when a schedule stays in 
place for a long period of time. We have made a lot of 
progress. We are literally testing some of those changes with 
agencies as we speak, and I'm confident in the end we will have 
a system that will allow us to stay current with the technology 
here in which we live and schedule records appropriately, but 
it is our responsibility. We accept that responsibility, and 
work with agencies to carry it out as well as with 
stakeholders.
    On the technology issue, the second part of the question, 
if I might, I would yield to my colleague here who probably can 
better explain to you that aspect of the question.
    Mr. Cahoon. Thank you, Mr. Chairman. The technology chosen 
for any particular type of record often depends on the 
technology that was used to create it, and from there the 
technology required to ensure that those records are available 
from generation to generation. Microfiche, for example, can 
last, if preserved properly, for hundreds of years. When that 
microfiche begins to appear to deteriorate, then that 
microfiche can be recopied using the same technology because it 
is human readable.
    Electronic records, however, present a more difficult 
challenge. Electronic records will come in many different 
formats when they are created but ultimately, for us to 
preserve those records for the long term, we need to find 
formats that will enable us to remove the dependence that we 
often find that those records have on the technology that 
created them. We need to find technology independent formats 
for them.
    The media, which is one of the issues that you raised--the 
media presents an interesting problem. We find that the best 
way to deal with the media at this point is to migrate the 
media as technology changes. For example, we might record 
information on cartridge tapes, 3480 cartridge tapes. When 
those become obsolete, we might convert that information to 
3590 cartridge tapes and continue to progress as the technology 
evolves. So we're continually making copies--faithful copies of 
those original records.
    So to sum up, the technology used to migrate records or 
to--excuse me, to preserve records depends on the original 
format that they came in and on the strategies we need to 
engage to migrate them from one technology to another.
    Mr. Putnam. That makes sense for ordinary memos and 
personnel records and payroll records, but when you get into 
the GIS or maps or digital photography, so much of what we 
generate in great volumes in this day and age. Do we save the 
original photograph or the original map, or are we content to 
scan it and leave it on a cartridge or a disk or microfilm? How 
was something like that handled that is, at best, different 
than just ordinary memorandums or other documents?
    Mr. Cahoon. The technology that creates these electronic 
records, a geographic information system record, for example, 
is highly dependent on the software that created it and the 
format that record is actually stored in. And so, the intent 
would be to find a format, ultimately, that would free that 
record from its dependence on the format that it was created 
in.
    So in your example, where we're concerned about scanning a 
map, that's different, Mr. Chairman, from the technology used 
to capture the record originally and electronically and evolve 
it over time. So for scanning a map, for example, we would find 
a technology independent format to store that map in and be 
able to migrate then that map from generation through 
generation of media technology.
    For a geographic information system where the information 
for the data associated with it is proprietary, we would try to 
find a technology independent format for that, and then migrate 
it as faithfully as we could through generations of media 
technology.
    Does that respond to your question?
    Mr. Putnam. I'm not sure. Our capabilities today are so 
dramatically different than when Lewis and Clark were drawing 
their own maps or when Cartier was charting the St. Lawrence. I 
mean, it seems obvious to us today that is historic and worthy 
of preservation as it is, but if we're shooting tens of 
thousands of pictures over Baghdad in a 90-day period of time, 
do we save all of those as they are because they are historic--
as they are? Or do we change how they are saved and therefore 
lose the actual document that was used by decisionmakers to 
make particular policy decisions that are historic by 
definition?
    But when you calculate that there's a constant stream of 
images being generated of Mars or the moon or a tropical storm 
in the Gulf of Mexico or where a gas line is in the city of 
Alexandria, how do we decide which of those things are worthy 
of keeping as they are because the very nature of that form is 
in itself historic just as if it had been drawn on the back of 
a deer skin?
    Mr. Carlin. I would just say this, Mr. Chairman, that when 
you move from historically the important documents whether they 
are written on parchment or paper, whether they are still 
photos or videotapes, as you get more and more into the 
technology realm, it changes in terms of preserving that 
original. In other words, ultimately 100 years from now to look 
at something that was created digitally today, it won't be 
essential that you have the equipment of the 2003 to use it to 
see it.
    What you want to see in modern equipment of 100 years from 
now is what was there. So we won't be preserving that record 
that is on that first. The information will be preserved, and 
it will be preserved authentically. That is one of the real 
challenges, to make sure that you have authentic records over 
time, but in contrast to that Lewis and Clark map, which we 
will keep in its original form because it has intrinsic value 
as well as informational value, although even today we will 
scan, digitize and put up on a Web site that map to expand 
access to it, we will keep that original, yes; but when you 
move, it seems to me, into technology, we're not--the original 
is important only in the sense that we keep the authentic 
document, the information, the numbers, the diagrams, the 
descriptions and not keep a historical presentation itself or 
the equipment it was presented on.
    Now, that is my cut at answering----
    Mr. Putnam. If I heard you correctly, you said that it is 
less important to preserve the actual document and more 
important to preserve the information on that document using 
the best available technology. I believe that is what I heard 
you say.
    Mr. Carlin. As a layperson, that is what I communicate, 
yes.
    Mr. Putnam. But my point is that the format that it is 
saved in today, which is the best possible technology today, 
that actual physical document, the map or the photograph or the 
thermal imagery of the fires below the rubble in Ground Zero of 
New York, in and of itself, will be historical because 100 
years from now, people will think, well, isn't that quaint and 
charming that they could rely on something so rude, so crude or 
so rudimentary compared to what they have 100 years from now? 
And so the difference between the pictures of Ground Zero or 
the Pentagon from September 11th and the pictures of Pearl 
Harbor are the magnitude in terms of volume.
    I mean, there's thousands of pictures of New York. There's 
probably dozens of pictures of Pearl Harbor. So how do you 
decide which of those things are worthy of keeping as they are 
because of what they are, in the format that they are in, 
because they are intrinsically historic?
    Mr. Carlin. Well, Mr. Chairman, to use the Pearl Harbor 
example, of photographs taken at that time, at some point, that 
record, that picture will diminish, and we will copy it. So 200 
years from now they will not be looking at that original 
picture. They will be looking at a copy of that record, of that 
picture. That's been true in terms of still photos, color 
photographs, videos. The preservation over time is 
transferring, making sure you have a quality preservation copy, 
and then as the use of it from researchers diminishes quality 
or just time does, you make a new copy in the technology of the 
time. So that will not change. In terms of deciding what we 
keep that goes back to the scheduling issue and working out 
with the agency and stakeholders' participation whether or not 
those images or those records in electronic form should be kept 
for 50 years, 100 or as we say permanently in the archives, 
accessioned into the National Archives.
    Mr. Putnam. Well, my time is long since run out, and I need 
to yield to my very able Vice Chair. I would just say that I 
hear what you're saying, but the fact that we have made copies 
and preserved the content of the declaration of independence 
doesn't mean that we quit preserving the actual parchment.
    Mr. Carlin. That is correct.
    Mr. Putnam. And that same drive to preserve will apply to 
other things. As we go through this hearing, my interest is in 
finding out the processes used for determining what things are 
worthy of keeping for posterity.
    People may not have thought it was terribly important to 
keep a list of the procurement orders that Washington ordered 
for his men for the winter at Valley Forge 225 years ago. Today 
an archaeologist looks up what they bought and how many buttons 
and where the buttons came from, and they can now find exactly 
where the campgrounds were because of what they threw out the 
back or what fell off their uniform. It probably didn't seem 
terribly important to save all that back then, but it has 
tremendous uses today. Now in this information age, in this 
allegedly paperless society, we're generating a whole lot more 
stuff, and it's in a format that is more tricky, because of 
obsolescence, to keep, and so those decisions become more and 
more important.
    I'll yield to the vice chairwoman, Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman. I find your questions 
so interesting, I think it really does go to the whole heart of 
this, is what are we trying to archive? What is really 
necessary? I think that is what we're all struggling with, what 
are we actually--what is necessary and what is not, I suppose. 
You know, actually, I think in this case--well, in many cases, 
but certainly when we think about archiving, let me just--a 
personal example, first of all. We're thinking about everything 
that we should be archiving or shouldn't be archiving. I think 
Members of Congress need to set our own example and our own 
standards of what we are trying to do as well as we're 
questioning everybody else and all of the other agencies of 
what they are doing, and the Members themselves sometimes could 
be more cognizant, I think, of what is important and what is 
not.
    We've tried to just, within my own office what happens when 
you--I'm a freshman. When you become a new freshman Member, you 
inherit everything from your predecessor. The most up-to-date 
piece of equipment I had was a 1986 Macintosh, if you can 
imagine.
    So we purchased a new computer system. We have no paper in 
our office to speak of. We put our whole data base into the 
thing. Any correspondence that we get from any constituent. We 
have every registered voter in my district, their name and 
their address, if they fax us or call us or what have you. We 
have a paper trail on it. We have a workflow that we can 
generate their name, and if they were asking us about a Social 
Security issue or a Veterans' benefit. That has been a helpful 
tool.
    Here we are as a Federal Government telling you to get away 
from paperwork, and then sometimes we have way too much 
paperwork. What is important? We are looking for a little 
assistance from you about what is important.
    I would like to ask a question of Ms. Koontz. I thought 
your testimony was very interesting. You outlined a number of 
things in regards to NARA that you thought probably could be 
done better. And I am just wondering, should there be a 
function with GAO when you are doing your audit process that be 
part of your auditing process with the various agencies in 
regards to records management? Is it already a part? And, for 
instance, if there are some agencies that are doing well, you 
might want to point that out to other agencies. DOD is 
apparently ahead of the curve. If there are other agencies that 
are not doing well at all, would this be identified as a 
material weakness in their audit? And how can you assist from 
your perspective these other agencies?
    Ms. Koontz. I would not say that a look at records 
management would be a routine part of our information 
technology audits, but I think that is an interesting idea. And 
one of the things that we have looked at lately is how to, 
perhaps, get more recognition of records management in some of 
the institutional processes that we are trying to get in place 
across the Federal Government.
    I think Mr. Cahoon talked earlier about the Federal 
Enterprise Architecture. Another way to go is to try to embed 
records management concerns in the investment process that 
agencies go through in order to make investment decisions about 
new IT systems. As they decide to acquire and monitor a system 
over time, that would certainly be a good way for an agency to 
be asking over time, how are you handling the records issues? 
And putting additional emphasis on them. Those are processes 
that we are trying to get institutionalized in agencies. But I 
think your idea about making it a more routine part of the 
audit is interesting.
    The other thing I would mention, too, is that this last 
year we contracted with Grant Thornton to start doing some work 
that was best practices-oriented on records management across 
the Federal Government, and the principal investigator on that 
was Tim Sprehe, and he will be talking on the second panel. So 
he has developed some, shall we say, preliminary models for 
records management and identified a number of best practices 
that I think could be transferred to other agencies.
    Mrs. Miller. I think that is very commendable that you 
would be doing that with best practices with the private 
sector. The reason I asked you that question, you also 
mentioned that there is a possibility of very important 
information being lost in those kinds of things. Have you found 
that? How can you make that kind of a statement? Are you 
finding these kinds of things very important information that 
has been lost by the various agencies? Are you finding that 
during your course of your audits? And if you do find that out, 
who do you tell about it?
    Ms. Koontz. From an audit perspective, once it has been 
lost it is hard to find. And from that perspective, I don't 
think we have independently documented the loss of the 
information. What I think we are talking about there is that 
the risk that information is lost is dramatically increased. 
Although, I think maybe the NARA representatives might be able 
to talk about something like this in more detail that I can at 
this point.
    Mrs. Miller. I am wondering if part of the hesitancy that 
many of the agencies, and maybe this is a question for Mrs. 
Riofrio with the Department of Defense, but perhaps much of the 
hesitancy on behalf of all of the agencies about archiving and 
that kind of thing, particularly e-mails, you mentioned about 
e-mails. Now, in this last theater, we saw all of the troops 
that were using e-mails to communicate with their families, and 
what a wonderful thing that was. Obviously, you do not want to 
archive people's personal correspondence. But many people may 
feel hesitancy about giving up their records of e-mail in the 
normal course of business in the various agencies, and that I 
would suspect, makes it more difficult to determine what you 
are going to archive, as the chairman was mentioning about 
General Washington and those kinds of things. If he could have 
sent an e-mail, perhaps he would have done it, and now it makes 
some sense.
    Ms. Riofrio. We have been working records management from a 
very decentralized approach for a long time. And it has not 
been particularly visible, I think. We concur with GAO's 
statement. But we have found that the focus, the new focus that 
we have taken with records management applications really 
transforms the way people think about electronic records, 
focusing on what is it that we are going to preserve and what 
is it that we are not. It seems that the people who are 
performing the function have the best understanding of what is 
most important.
    But they were not necessarily, at least in the past, 
thinking about records management. But we were talking about 
now records management applications, sound like software. ``Why 
don't you go put software in?'' But you can't do that. You have 
to rethink your function. You have to rethink your schedules. 
You have to plan again. And then everyone in the organization 
becomes a records manager of sorts, and becomes conscious of 
records, and starts to make those decisions.
    And the records management standard--we were going through 
this in detail yesterday--requires a great deal of flexibility 
and decisionmaking on the part of the organization and then of 
the individuals. And I think that is the beginning of some of 
the answers that visibility, not just the capability, but the 
visibility and the understanding.
    So we are very excited about the large efforts in the Navy 
to see how that evolves. Thank you.
    Mrs. Miller. I am interested as you mentioned about the 
flexibility, and I know Mr. Cahoon mentioned in his remarks 
about trying to give all the various agencies a great degree of 
flexibility, and in concept, I think that sounds very good. But 
as we are trying to get to standards, if you give everybody 
that much flexibility, you could find yourself in a situation 
with particular format that is not compatible with proprietary 
systems. I am sure you are finding that all the time. Should 
NARA be establishing the standards and defining the standards?
    You mentioned during your testimony, I think you mentioned 
about the GIS. We are all onto this GIS. We had a very 
interesting hearing a couple of weeks ago about GIS, and all 
the local municipalities have these wonderful GIS systems, but 
nobody at the county level can use them, and the State can't 
use them, and the Federal can't use them. And as we think about 
homeland security, how does that all trickle down? And in this 
way, I think, perhaps as well, is the Federal Government 
responsible for setting some standards as you are archiving 
different things? How do you work with the States and the other 
levels of government?
    Mr. Cahoon. I think, Vice Chairwoman Miller, I believe that 
NARA has been very cautious about the formats that it has 
allowed to be transferred to the permanent archives. In fact, 
we have been so conservative in that up until recently, we only 
allowed relational and flat-file formatted data bases that 
would be readable independent of technology, to be accessioned 
into the archives and only records that were in ASCII format; 
those were the only formats that we accepted. And, of course, 
with that fairly limited set of records, there were a lot of 
records being created that did not fit neatly into that set of 
standards.
    So as a result, we have opened up the possibilities for 
additional formats. E-mail with attachments. We have a standard 
associated with that. Tagged-image file formats for images, and 
PDF for textual documents can now be sent to us. But those are 
the only formats currently that are accessionable into the 
archives. And so we will continue to set standards for these 
other kinds of records as time goes on. That is part of our 
major initiative with the Electronic Records Archive.
    And we are constantly involved in very collaborative 
efforts that include the States in thinking about not only 
standards and the records management applications that have 
been spoken of, but we collaborate with NASA on the set of 
standards, particularly the Open Archival Information System 
Model and the standards associated with it. We do believe that 
NARA is in a very important position to set standards for 
records that would be accessioned into the National Archives.
    Mr. Carlin. May I add something to that? You folks helped 
us a lot under the leadership of Chairman Davis on the e-
government legislation because of a couple of aspects of that 
are going to be very helpful to us in making OMB a real player, 
and obviously, helping us as one agency working with the entire 
Federal Government, not only in the structure within OMB that 
will have a direct responsibility, but the committee that is 
set up. We will be a direct participant, including the Deputy 
Archivist who is going to be a major player on that.
    I think in terms of setting the standards, it is not just 
like, yes, we have a responsibility. I also think we have been 
given additional tools now to convert that into reality.
    The other thing I would quickly add, as a former State 
official as well, I understand very clearly the incredible 
amount of Federal money that flows to State and local. And 
whether it is Homeland Security or whatever, if we do not work 
with State and local to make sure those records are preserved, 
we will not have, from a Federal point of view, the records to 
really deal with accountability, whether the program really 
worked. So there are huge incentives for us to work with State 
and local. And one of our main avenues, of course, is the 
National Historic Publications Records Commission, which is our 
modest grant-providing division that supports and helps State 
and local governments, and certainly as we look to the coming 
years, working with them, passing along, allowing them to try 
some things. You, in the State of Michigan, have done some 
really great things working with the NHPRC to move us all 
forward as we share up and down the channels.
    Mrs. Miller. Thank you, I think my time has expired, Mr. 
Chairman, I appreciate it.
    Mr. Putnam. Thank you, Mrs. Miller. Ms. Riofrio, how do you 
handle the issues of classified versus nonclassified documents 
as part of your electronic records management?
    You can answer the question if you would like. We can swear 
you in real quick if that will save time. Would you like to do 
that? Could you identify yourself and your position for the 
record into the mic?
    Mr. Matsuura. Steven Matsuura. I am a senior electronic 
engineer from the Joint Interoperability Test Command, part of 
the Defense Information Systems Agency.
    Mr. Putnam. Very good, please rise and raise your right 
hand.
    [Witness sworn.]
    Mr. Putnam. The witness responded in the affirmative. If 
you could please answer the question.
    Mr. Matsuura. First of all, classified and unclassified 
records have to be segregated. So they are not handled the same 
way because there is extra security procedures and safeguards 
that are required for classified records.
    Additionally, the standard has additional requirements for 
information when a classified record is declared as a record. 
In addition to the normal information that a user has to input 
to document the records, he has to add information such as the 
reason for classification, what the declassification schedule 
is, and, of course, what level of classification it is.
    Mr. Putnam. We collect, in Mr. Rumsfeld's terms, an 
``unknowable amount'' of information from around the world 
through various sources and methods. It is then filtered and 
screened through a variety of appropriate personnel and 
agencies as part of our intelligence briefings and intelligence 
plans. How would someone know, and at what point in that chain 
does someone know, that they should preserve either the raw 
data or the interpreted data or the refined data? At what point 
does that become a record and subject to the process as a 
classified document that you just outlined?
    Mr. Matsuura. Well, it is somewhat subjective, but as 
mentioned before, each agency has to have a schedule, and if a 
record falls into a certain category or series, he knows that--
or a document or a piece of information--he knows that it needs 
to be saved as an official record.
    Mr. Putnam. Are the schedules designed by each individual 
agency, or are the schedules designed by NARA and handed down 
to the agency?
    Mr. Matsuura. Well, NARA, of course, develops the General 
Records Schedule, which agencies use if they are applicable or 
where applicable. But actually, agencies propose schedules, 
depending on what their business line is, and submit them to 
NARA for approval and that gives them the disposition 
authority.
    Mr. Putnam. Ms. Koontz, would you like to comment on this 
whole process? There seems to be a general difficulty in 
describing to the subcommittee how the decision is made, what 
records are worthy of archiving.
    Ms. Koontz. Well, I am not sure I can elaborate a whole 
lot. NARA has a whole process that they have used over many 
years where they use experts to appraise--that is, you know, 
look at the value of a record and determine whether that record 
could possibly be a permanent record or not. They are certainly 
more expert in that process than I am, but they do have a very 
longstanding process to decide which records will be kept and 
which records can be disposed of. That is what the whole of 
records management is, knowing what to keep and to get rid of 
the rest.
    Mr. Putnam. But in your testimony, you said that their 
architecture for archiving electronic records has raised some 
concerns about costs and progress on that system.
    Ms. Koontz. Right, the electronic record archiving.
    Mr. Putnam. On the electronic side.
    Ms. Koontz. Right. We are talking there about the 
development of their electronic archival system, which does 
what Mr. Carlin and Cahoon talked about preserving electronic 
records independent of software, so that you don't have to 
worry about software obsolescence, you can maintain the content 
over time, and part of the strategy is to migrate the media 
over time as well.
    Mr. Putnam. And as all agencies move forward purchasing new 
IT infrastructure, and we spend $60 billion a year on that, 
does OMB require a component of that enterprise architecture to 
be electronic records management? Is that part of it?
    Ms. Koontz. I think Mr. Cahoon talked with this earlier, 
about the relationship of records management to one of the 
component service areas in the Federal Enterprise Architecture. 
I know less about it than he does. He is working on that 
particular aspect.
    Mr. Putnam. Well, we have had a lot of hearings in the 
subcommittee this year on the inadequacy of our IT procurement 
and acquisition programs, the lack of information security, the 
fact that even within a department, especially DOD, there is an 
awful lot of different rabbit trails that are being pursued 
with regard to IT. So it would surprise me if they all had 
their act together on electronic records management? Is that 
the case or not?
    Mr. Cahoon. You needn't be surprised, Mr. Chairman. I would 
have to say that we are all working to get our act together. 
The Federal Enterprise Architecture specified in four different 
places records management as a key component of the business 
reference model of that architecture. In the service component 
architecture, there are identified a set of service types, and 
digital asset management is one of those service types. And 
within that service type is electronic records management 
identified specifically as a component in the Federal 
Enterprise Architecture. And that electronic records management 
then has a series of elements to it that, over time, when 
implemented, will provide not only guidance but specific 
software, component software, that can be used by agency 
applications that will help us move a long way toward 
standardizing how records are managed, how they are described, 
the kind of information that is available about those records 
how those records relate to one another, how they form 
collections, information about their disposition, how long they 
could be kept and for what purposes they should be kept. All of 
that is part of this architecture.
    And for me, that provides a sustainable, long-term way of 
bringing electronic records management into the forefront of 
information technology application development, because the 
components will be there, available for people to use and to 
integrate into their applications rather than having to figure 
out everything for themselves. So our requirements and 
standards, Mr. Chairman, can be built into those components 
themselves.
    Mr. Carlin. Mr. Chairman, could I add some, because you 
have a question that still has not been answered yet, and I 
would like to try one more time.
    Mr. Putnam. OK.
    Mr. Carlin. First of all there is a basic fundamental that 
the format itself does not impact whether a record is kept 1 
year, 2 years or permanently, whether it is on paper or 
electronic form. So when we shift to more electronic, that does 
not suddenly force a whole new set of schedules, generally. 
Now, obviously, there are some individual aspects that require 
some changes, and we are creating records electronically that 
we did not even have before in the paper form, but the format 
is not a factor. When we work to schedule records, to make 
those determinations, we want to document the decision and what 
the decision is will determine to a great extent how long it's 
kept.
    Reference was made to General Records Schedules by our 
friend from the Department of Defense. Those are the schedules 
that are across the board for every agency, for them to use 
efficiently to deal with very short-time, important for the 
moment, but certainly not important in protecting rights and 
entitlements, not important for accountability, certainly not 
important for telling the national experience, but just for 
that particular business transaction for a moment. Those are 
General Records Schedules that deal across the board, that will 
apply as well electronically.
    And so it's not the media that is the factor that 
necessarily determines how long a record will be kept. Because 
we are now electronic and have so much more volume, does not 
mean that we will go from 2 or 3 percent accessioned in the 
archives to 50 percent. It may go to 5 percent because of the 
ease with which dealt with it and our capacity to provide 
access to those records efficiently. But we don't want to cloud 
the whole electronic storecase with endless records that are 
not needed. If they were not needed in paper, probably they 
aren't needed electronically any longer than they were when 
they were a paper format.
    Mr. Putnam. That is a fair point. My concern is as much as 
anything on the map, GIS, geospatial photography side of 
things, which are much more voluminous than they were in the 
past, and frankly, easier to store because you can put all of 
this stuff on a CD-ROM or whatever. But the other issue and as 
the Technology Chairman, I am probably going to say something I 
shouldn't, but I will make a confession, I was on Air Force 1 
on September 11th. And until we shut down all of our electronic 
devices, I sent out e-mails to my wife for one. Well, I made a 
point of saving those e-mails, but I also printed them out 
because I did not trust the computer. One day I would be, you 
know, I would hit the wrong delete button. I just did not trust 
it, so I printed them out and saved them.
    I suspect you all probably do the same thing. That, you 
know, as good as your electronic capacity is, if there is 
something really special in there, you probably drop back to 
the good old-fashioned paper form, which is what all of us do, 
which is why this paperless society cuts down more trees than 
we ever have.
    And so the root of my questions about what is worthy of 
being saved and all of that, and how do we save it as the 
technology changes so that you don't have to keep a TRS8 to be 
able to read this 10 years worth of documents, and a 286 to 
read this, and a Pentium to read this decade's worth of 
documents. You know, at the end of the day, as that technology 
changes so quickly, we have to be very careful about how we 
preserve these things. And so that is my concern as an amateur 
history buff, that is my issue in trying to decide how you guys 
decide what to save.
    And, unquestionably, you are the best in the world at it. I 
mean, I don't propose to tell you how to decide what to save. 
But if you are just the systems administrator in the field 
office of the Farm Service Agency somewhere in Kansas, and you 
are trying to decide what is worthy of saving, I am trying to 
figure out before we go cracking heads who gives them some 
direction, some clear-cut policy on what they should keep and 
what they can throw out the back-door. And I have taken this 
hearing--the staff is going nuts, I have taken this way out 
into the historical side and not in the enterprise 
architecture, which is where we are supposed to be.
    I recognize Mrs. Miller for another round of questions, and 
then we will move on.
    Mrs. Miller. In the interest of time, I will pass. Thank 
you, Mr. Chairman.
    Mr. Putnam. One last question. Is there--and this gets to 
what I was saying about I printed out my e-mails--is there, 
say, a backup nondigital system for the storage of vital 
information should that information be lost?
    Mr. Carlin. Mr. Chairman, what you described previously is 
very real. Until we get records management applications to the 
quality that we are comfortable, a lot of agencies today, and 
with our encouragement, are printing out to paper. The record 
copy is paper, not the digital form that was originally 
created. So the practical issue you addressed is one that 
agencies do address today. That decision out there in Kansas 
that you made reference to, first of all, a schedule is going 
to determine and that schedule will say whether the electronic 
or the paper copy is the record copy. And probably out there, I 
would guess, it would be paper today because we are still at 
the early stages of developing--when I say we, I mean globally, 
we are testing and learning, but the private sector, in 
producing, has made a lot of progress. And we may have one 
there today, but is it available or been tested to the extent 
that everybody across the board, we are saying go forward and 
use it. So your experience is one that has been experienced by 
agencies all across the Federal Government.
    Mr. Putnam. Very good. Would any of the witnesses wish to 
add anything? Something that we did not ask about? Something, 
if you would like to clarify anything? This is your opportunity 
before we seat the second panel. Yes, sir?
    Mr. Cahoon. Mr. Chairman, I would like to add, with respect 
to this, your critical question. NARA looks very carefully at 
the business processes that each agency undertakes to do their 
business. And, based on an analysis of those business 
processes, determines what records are necessary to document 
the decisions and the transactions that business process 
creates.
    Based on that analysis, a record schedule is developed. 
That schedule is then reworked and evaluated and tuned up and 
then presented to Mr. Carlin for his signature. And it's based 
on that understanding of the business process and what is 
necessary to document the rights and entitlements of 
individuals, the decisions and actions of Federal officials and 
what would be important to know for the national experience, 
all become factors in the decision of what we should keep.
    Risk of those records being lost, and the value of those 
records to the business of the agency all factor in to the 
decision that is made as to what we ought to keep and what can 
be disposed of after the normal course of business. Thank you.
    Mr. Putnam. Very good, anyone else?
    Mr. Carlin. Mr. Chairman, I would only add that we 
appreciate very much this opportunity. We appreciate your 
leadership, along with your vice chair and your interest. And 
that we would hope that this would be an ongoing communication 
over time, because we realize you need to know what we are 
doing. You need to have your questions answered. And as I said 
to you privately, we appreciate the relationship with GAO and 
their active involvement in what we are doing in all aspects of 
electronic records, and we thank you very, very much for this 
opportunity today.
    Mr. Putnam. You are welcome, and we look forward to seeing 
your facility next week. The record will remain open for us to 
submit further questions that were not addressed in the 
hearing, and we would ask your cooperation in responding to 
those. At this time, we will excuse the first panel and seat 
the second. So the committee will go in recess for a minute and 
a half.
    Thank you.
    [Recess.]
    Mr. Putnam. The subcommittee will reconvene. We want to 
welcome the second panel. And as was the custom with this 
subcommittee and as you saw with the first panel, I would ask 
you to rise and raise your right hands, please, for the oath.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record that all of the witnesses 
responded in the affirmative.
    We will immediately go to witness testimony.
    Our second panel begins with Dr. J. Timothy Sprehe. Dr. 
Sprehe is president of Sprehe Information Management 
Associates, a firm offering consulting services and information 
resources management to government agencies and private firms 
since 1991. He specializes in issues such as strategic planning 
for information resources management, public access to 
government information, electronic records management and 
electronic collection and dissemination of information.
    He has conducted consulting studies for many U.S. Federal 
agencies and private firms doing business with the Federal 
Government. He retired from OMB in 1991, where at OMB he was 
the principal author of the original 1985 OMB Circular, No. A-
130, the Management of Federal Information Resources. This 
governmentwide information policy directive established 
comprehensive policy on managing information and managing 
information systems and technology.
    Mr. Sprehe received an M.A. in 1963 and an Ph.D. in 1967 in 
sociology from Washington University in St. Louis. We welcome 
you to the subcommittee, Dr. Sprehe, and look forward to your 
testimony. You are recognized for 5 minutes.

STATEMENTS OF J. TIMOTHY SPREHE, PRESIDENT, SPREHE INFORMATION 
   MANAGEMENT ASSOCIATES; ROBERT F. NAWROCKI, CRM, DIRECTOR, 
RECORDS MANAGEMENT AND IMAGINING SERVICES DIVISION, LIBRARY OF 
 VIRGINIA; CARYN WOJCIK, STATE GOVERNMENT RECORDS MANAGEMENT, 
MICHIGAN; AND DR. RICHARD LYUSAKOWSKI, DIRECTOR, COLLABORATIVE 
        ELECTRONIC NOTEBOOK SYSTEMS ASSOCIATION [CENSA]

    Mr. Sprehe. Thank you, Mr. Chairman. It is a pleasure to 
appear before this subcommittee to discuss the subject of 
electronic records management [ERM].
    The National Archives' 2001 survey on current Federal 
recordkeeping practices, of which I was a coauthor, stated that 
the chief paradox of today's Federal records management is the 
disconnect between paper and electronic recordkeeping. Many 
agencies do competent paper records management; only a handful 
do competent electronic records management.
    One reason for this condition is the cultural chasm between 
the records management community and the information technology 
community. Generally, records managers do not understand IT, 
and IT managers do not understand records management.
    A Federal record is not just something saved by a computer. 
Rather, a record is maintained as evidence in pursuance of 
legal obligations or in the transaction of business. It's 
something you can take into court where you must be able to 
prove that the record has authenticity, reliability, integrity, 
and usability. IT professionals seldom understand this meaning 
of ``record.'' It's common to say today that most records are 
born electronic. Where do they live and where do they grow up? 
In IT systems. And nobody is talking to the IT people about 
records.
    A second reason that ERM is sadly wanting in Federal 
records is because the National Archives has been painfully 
slow to address ERM, let alone get out in front of it. Bold 
out-in-front policy guidance on ERM comes slowly in NARA's 
culture of archivists and historians, compounded by the 
agency's extreme, and perhaps well justified, fear of adverse 
litigation. You might note that for all of its commendable 
initiatives in the electronics record management area, NARA 
itself does not use electronics records management.
    A third reason for the slow spread of ERM is the obstacles 
the agencies face, namely, lack of funding for ERM and 
indifference on the part of senior management. Too many agency 
heads and chief information officers consider ERM a back-burner 
low priority. They believe their top priorities are more 
immediate and include items such as security and risk 
management, not appreciating that ERM improves security and 
lowers risk.
    Thus, as the volume of electronic records multiplies 
exponentially in the agencies, progress in ERM creeps along 
inch by inch. Disasters such as happened at the Bureau of 
Indian Affairs and the Federal Bureau of Investigation are the 
tip of a large iceberg. Many more records management disasters 
are out there waiting to happen.
    On the bright side, a few agencies have achieved 
significant advances in making ERM an integral operating 
component in their information architectures. Agencies such as 
the Nuclear Regulatory Commission, the Office of Civilian 
Radioactive Waste Management--otherwise known as the Yucca 
Mountain Project--in the Department of Energy, and the Office 
of Comptroller of the Currency in the Treasury Department. 
These are agencies that take records very seriously by the 
nature of their missions, agencies where top management has 
issued a mandate that ERM shall exist enterprise-wide.
    Agencies reaching full ERM implementation discover that an 
electronic records repository is an asset with many beneficial 
applications beyond records management. ERM gives the agencies 
instant access to institutional memory starting yesterday. They 
can leverage this asset to provide economies and efficiencies 
to other business functions. For example, the Nuclear 
Regulatory Commission's ADAMS, which stands for agencywide 
document access and management system, is a combined electronic 
documents and records management system. NRC has made ADAMS a 
core component of its public Web site, so that ADAMS not only 
performs records management, it also performs other important 
public information functions.
    Even more, NRC has coupled ADAMS with electronic signature 
capability, so that ADAMS can receive electronic submissions 
from nuclear reactor licensees in the general public, and, 
hence, NRC has leveraged its ERM investment to carry out not 
only its records management responsibilities, but also the 
Government Paperwork Elimination Act and improve its 
performance under the Government Paperwork Reduction Act.
    My single recommendation regarding Federal ERM is this: The 
Office of Management and Budget should change exhibit 300 on 
capital planning and budgeting in its annual budget directive, 
Circular No. A-11. The section of exhibit 300 that deals with 
IT systems should state that no new IT system will receive 
funding for development and acquisition unless the 
justification for the new system adequately explains how the 
system will provide for records created by or passing through 
the system. NRC and the Yucca Mountain Project are already 
implementing such a policy.
    We can only hope that the many agencies planning today for 
ERM will receive the funding and leadership they deserve. From 
my research and consulting I have come to believe that ERM is 
the bedrock of what is known today as enterprise content 
management or what we used to call information resources 
management. Without ERM, enterprise content management is 
incomplete and hollow at its core. Thank you for inviting me to 
testify. And I would be happy to answer any questions you have.
    Mr. Putnam. Thank you very much, Dr. Sprehe. I wish the 
first panel had hung around.
    [The prepared statement of Mr. Sprehe follows:]

    [GRAPHIC] [TIFF OMITTED] T3006.060
    
    [GRAPHIC] [TIFF OMITTED] T3006.061
    
    [GRAPHIC] [TIFF OMITTED] T3006.062
    
    [GRAPHIC] [TIFF OMITTED] T3006.063
    
    Mr. Putnam. Our next witness is Mr. Bob Nawrocki.
    Mr. Nawrocki is the director of the Records and Imaging 
Service Division in the Library of Virginia. Previously he was 
the electronic records coordinator for the library. He is 
responsible for dealing with electronic records issues facing 
the State of Virginia. Previously he spent 2 years as a 
contractor with the Air Force working on their integrated 
digital environment.
    His experience involves working for State and Federal 
Governments, as well as for several law firms and private 
industry. Mr. Nawrocki is a Certified Records Manager and has a 
Masters in Science in Library and Information Sciences from the 
Catholic University of America. He is an adjunct faculty member 
with Catholic University teaching Information Systems for 
Libraries and Information Centers and Organization of 
Information.
    Welcome to the subcommittee. You are recognized.
    Mr. Nawrocki. Thank you, Mr. Chairman. I will briefly be 
speaking today about the Library of Virginia and what we are 
doing here in Virginia dealing with electronic records.
    The Library of Virginia has responsibility for the 
Commonwealth's records management and archival programs. As 
such, we work closely with State and local agencies to assist 
them with the management of their records. Over the past 5 
years, electronic records have become a significant issue. In 
2000, the Library was able to hire their first electronic 
records coordinator to develop polices, guidance, and provide 
advice on the management of electronic records.
    The Library faces many of the same problems that NARA does, 
even though they are on a much smaller scale. In the 1990's, a 
number of Virginia counties began to use scanning and 
electronic storage for the recording of deeds. While this 
reduced the amount space required and improved access, it did 
not provide the long-term stability and preservation required 
of such records. In fact, we had a county that actually lost 
about 30 or 40 deeds when they had a computer crash. Luckily, 
they were able to recover those over a short period of time.
    Changes to the Code of Virginia have made digital images 
legal substitutes or replacements for original documents. The 
Library wants to encourage the use of microfilm as a backup to 
digital images, since there are no recognized, permanent media 
in the digital arena. When stored properly, microfilm can last 
up to 500 years. Through a philanthropist, the Library was able 
to obtain a Kodak Archive Writer to convert digital images to 
microfilm. We use an encrypted Internet connection for scanned 
images to be sent to the Library's State Records Center, where 
they are stored on a RAID device until data would be written to 
microfilm.
    The microfilm was processed under a quality control and the 
resultant negatives were stored in our media vault. And this 
project continued into the fall of 2002 when most of the staff 
was laid off due to extreme budget cuts. By that time, private 
vendors were able to step in using the same technology to do 
the same actions at the same or lower costs.
    Over the past 3 years, the Library has worked to educate 
State and local agencies about electronic records and the best 
methods to preserve them. Guidelines for transferring 
electronic records into the Library are under development. Our 
greatest concern is that in the short term we will lose access 
to these records before a reliable method of archiving them is 
developed. We have found that the single most important tool 
for raising awareness, though, is education through 
presentations and articles.
    Second, we believe that the development of guidelines that 
provide advice and suggested tools for electronic records 
creators are also useful. We also find it is important not to 
develop guidelines and tools that are too narrowly drawn since 
the same solution is not always applicable in all cases.
    Rapid technological change results in records only a few 
years old being unrecoverable because the hardware or software 
does not exist. While there is significant, extensive research 
being done long-term on electronic preservation, we need to 
remember that we have to manage these records in the short 
term, so that when the proverbial magic bullet is created, 
there will be older electronic records to be preserved.
    The current effort to create a Portable Document Format-
Archival is an excellent example of this thinking. The use of 
hybrid analog/digital technologies is another. We need more 
collaborations like this which utilize existing technology and 
software to provide records managers, archivists and librarians 
with the tools needed to manage today's electronic records. We 
also need to continue to use the tools, both analog and 
digital, which allow us to provide access to existing 
electronic records and preserve them at the same time.
    There is much work being done around the world in the field 
of digital preservation and sharing of information. This is 
necessary and must continue if we are to solve this intractable 
problem. Thank you.
    [The prepared statement of Mr. Nawrocki follows:]

    [GRAPHIC] [TIFF OMITTED] T3006.064
    
    [GRAPHIC] [TIFF OMITTED] T3006.065
    
    [GRAPHIC] [TIFF OMITTED] T3006.066
    
    Mr. Putnam. At this time, I would like to turn the gavel 
over to our distinguished vice chair and native of Michigan, 
former Secretary of State, Mrs. Miller, for the next 
introduction.
    Mrs. Miller [presiding]. Thank you, Mr. Chairman. It's my 
pleasure to do so, to introduce Karen Wojcik. She has worked 
for the State Archives of Michigan since 1996. She is State 
Archives' primary liaison with the executive branch, the 
legislature, the Supreme Court and our Court of Appeals. She is 
responsible for appraising public records for their historical 
value and for developing electronic records management and 
preservation strategy.
    Mrs. Wojcik received both her bachelor's degree in history 
and her master's degree in information and library science from 
the University of Michigan, Ann Arbor. And we wonder who she 
roots for on football days between the Michigan State and the 
University. She is a Certified Archivist. She has participated 
in several grant projects funded by the National Historical 
Publications and Records Commission, including the Michigan RMA 
Pilot Project, the PERM Project, and she served on the advisory 
board for the SDSC Archivists' Workbench Project. She is the 
Chair of the National Association of Government Archives and 
Records Administrators, on the Committee on Electronic Records 
and Information Systems, and has been nominated to serve as 
secretary on this board as well, and we are certainly pleased 
to have her here as well.
    Ms. Wojcik. Thank you. Mr. Chairman, thank you for inviting 
the Michigan Department of History, Arts, and Libraries to 
testify at this hearing. I am honored to be speaking to you 
today about the management and preservation of our government's 
records, particularly electronic records. And, of course, I 
especially want to thank Congresswoman Candice Miller for 
inviting us to be here today.
    The Michigan Department of History, Arts, and Libraries is 
committed to enriching the quality of life for Michigan 
residents by providing access to information, preserving and 
promoting Michigan heritage, and fostering cultural creativity. 
The Division of Archives and Records Management within the 
Michigan Historical Center is responsible for ensuring that 
Michigan's government records are properly managed and 
preserved throughout their entire lifecycle.
    Public records are essential for protecting our legal 
rights, for documenting the actions of our government, and for 
understanding the society in which we live, and, therefore, it 
cannot be sufficient to have our history preserved by accident.
    As a general rule, we estimate that less than 5 percent of 
all government records possess permanent historical value. 
Professional archivists and records managers have worked for 
years to develop systematic processes that identify which 
records possess historical value and to provide for their 
preservation. Unfortunately, many government agencies do not 
follow these procedures, and they fail to protect the 
irreplaceable items in their custody.
    In the traditional paper-based world, valuable records have 
managed to survive despite this neglect. However, electronic 
records will not survive long enough to be used by future 
generations without active investments in their ongoing 
preservation and access. Computer technology and electronic 
records create many challenges and opportunities for the 
records management and archival professions. This technology is 
a moving target and we need long-term solutions. Certainly, the 
National Archives and Records Administration has served as a 
leader in this field of research.
    The Michigan Division of Archives and Records Management 
began discussing electronic records issues more than 25 years 
ago. With the advent of desktop computing, we became 
particularly concerned about how we could manage and preserve 
e-mail and word processed documents.
    The U.S. Department of Defense issued the first version of 
its standard 5015.2 for Records Management Applications in 
1997, and several commercial products are on the market that 
comply with this standard. We wanted to test the RMA software 
in State government offices to determine if it would address 
the record retention problems we were trying to solve.
    We decided to apply for and we received a 2-year grant 
beginning May 2000 from the National Historical Publications 
and Records Commission to conduct a pilot project using a DOD-
certified Records Management Application. At the time, the 
State Archives was an agency within the Michigan Department of 
State led by Secretary of State, now Representative, Candice 
Miller. The project had three goals: One, to assess the ability 
of an RMA to classify and manage electronic records and execute 
retention requirements, including the identification and 
segregation of archival records; two, to analyze the cultural 
impact that RMAs have on agency staff, information technology 
personnel, records managers and archivists; and three, to 
conduct a business process analysis and evaluate the potential 
for RMAs to be used in an enterprise-wide setting.
    Our pilot project demonstrated that RMA software works. 
Electronic records that are created by common desktop programs 
can be organized and stored in a centralized repository that 
automatically implements the appropriate retention period for 
the records. However, we found people will resist changing the 
way they file and access their electronic records, because less 
than a third of our project participants adopted the RMA 
software as their primary tool for storing electronic records. 
The RMA features need to evolve to make the filing and 
retrieval of electronic documents appear transparent to users.
    We also learned that business process improvements can be 
derived from using RMA software, especially when the business 
process change involves the transformation from a paper-based 
process to an automated process. When these improvements are 
adopted by the agency, RMA use and satisfaction does increase.
    This project demonstrated that management support for 
change is essential to the success of an RMA. Managers must 
establish expectations and consequences for not following 
established procedures for electronic recordkeeping. 
Encouragement by management needs to focus on the positive 
benefits to the individual and the agency. The Department of 
History, Arts and Libraries is continuing to support the 
limited use of the RMA software now that our pilot project has 
ended.
    However, RMAs are record retention tools, not preservations 
tools. The electronic records that are stored in the RMA's 
centralized repository remain in their native format. The RMA 
is not capable of ensuring that they remain accessible as 
underlying technology changes. Therefore, a methodology must be 
developed for preserving archival electronic records and those 
with long-term retention requirements. This is why the NHPRC 
initiated a partnership between the San Diego Supercomputer 
Center and the State of Michigan to address long-term and 
permanent preservation of electronic records. In November 2001, 
we were awarded a 2-year grant from NHPRC for what we call the 
PERM Project. This collaborative project is developing 
functional requirements for preserving electronic records that 
are stored in RMA repositories so they remain accessible. These 
functional requirements were published in January 2003, and 
currently researchers in San Diego are developing a prototype 
to test these functional requirements.
    These and other projects are essential for ensuring that 
our documentary heritage remains accessible to future 
generations. Thank you again for inviting me to testify before 
you today.
    [The prepared statement of Ms. Wojcik follows:]

    [GRAPHIC] [TIFF OMITTED] T3006.067
    
    [GRAPHIC] [TIFF OMITTED] T3006.068
    
    [GRAPHIC] [TIFF OMITTED] T3006.069
    
    Mrs. Miller. We certainly appreciate your testimony today.
    Our next witness is Dr. Richard Lysakowski. He is the 
executive director and president of the Collaborative 
Electronic Notebook Systems Association and the Global 
Electronic Notebook Systems Association [GERA] as well. It is a 
professional standards association built on government-industry 
partnership with a mission to create program, policy, and 
procedural and technology standards for quality electronic 
records programs. Dr. Lysakowski has 25 years of experience 
working with automation systems in various scientific software, 
engineering and project management roles in both the public and 
the private sectors.
    We welcome you to the subcommittee and look forward to your 
testimony, sir.
    Mr. Lysakowski. Thank you, Ms. Chairwoman.
    A little bit of background on CENSA, the Collaborative 
Electronic Notebook Systems Association. Our primary mission is 
to create totally electronic replacements for inventors' 
notebooks and regulatory records, record books that are used in 
a research development quality assurance manufacturing other 
enterprise business environments. These are vital records that 
indicate the quality of a project that manufacturers are 
shipping. And the industries we cover include pharmaceutical, 
chemical, food and beverage, oil and gas, consumer products, 
government and many other industries.
    Replacing the inventor's notebook has been one of the 
greatest challenges because frequently in a patent interference 
it will come down a single page in a single record book that 
makes or breaks a multibillion dollar a year, 20-year monopoly 
for product revenues. So we are talking about serious 
commercial impact.
    Regulatory impact, if records are either fraudulent or 
inaccurate to the point where product quality is poor, can 
frequently shut down a facility--manufacturing facility for as 
long as 6 months, losing more than $1 million per day in 
potential revenue. So serious consequences can result from poor 
quality recordkeeping.
    And so for these records, making them electronic has been 
quite a challenge. And we worked with NARA to find out what the 
best practices are out there now and in the near future and 
worked with many vendors. Our role as a market development 
association is to create multiple competing products for all 
the necessary components that make up a complete electronic 
system for records creation, management, archiving, 
preservation, retrieval and access. So looking at the whole 
life cycle of the electronic record has been quite important 
for us.
    And NARA's focus has been, at least in its current funding, 
focusing on records management. We need it to include archives 
management specifications.
    So some summary points that I needed to make: We are 
appreciative of NARA in having funded the Global Electronic 
Records Association to create the first quality electronic 
records practice standards. That work is just being complete 
now.
    But looking more globally, I would say that NARA is 
underfunded to face the grand challenge of electronic records 
for the full lifecycle for all agencies that it serves and 
industry and the private sector in general.
    Government needs other funding sources. NARA's budget for 
fiscal year 2003 is $268 million. That is less than the annual 
revenue of even one of our member corporations. So one issue is 
that NARA is insufficiently funded to achieve the goals for all 
agencies and the private sector too.
    If NARA is to help the agencies and the citizens it serves, 
it should provide blueprints, mandate standards and 
requirements for policies and technology systems that implement 
records management and archives management. Don't forget the 
archives for each agency. The DOD standard does a nice job of 
covering records management but does very little on archives.
    Third point is the OMB exhibit 300. I would concur with the 
first witness on this panel, that two parts need to be added to 
that exhibit. One is on the preservation of business assets. 
The information assets that are created by any IT system must 
be demonstrated to be completely exported and reconstructible 
in another system before any system is purchased. So that 
procurement process must specify interoperability between at 
least three to five systems to guarantee alternatives. So the 
procurement process itself needs to change. These 
demonstrations of reconstruction of an archival information 
packet need to be shown before any money is provided to a 
vendor.
    The last point is subscription-based software pricing is 
one of the greatest threats we have to records and information 
assets. This is a new pricing model whereby you pay every 12 
months for use--continuing use of your software to access your 
property. Software is a tool to create intellectual and 
business assets. Some vendors are pushing subscription-based 
pricing instead of perpetual-right-to-use license for the 
software. So unless this software purchase includes purchase of 
the format and some type of free viewer that goes along with it 
is made available, then subscription-based pricing shouldn't be 
pursued by the Federal Government for any system containing 
important business assets.
    Mrs. Miller. Thank you. You know, I might just pick up on 
that subscription-based pricing. I am just trying to understand 
what you were saying there. Because it would seem to me, with 
all the different--just the government demand itself, that 
there would be a software program that would be very viable in 
the marketplace, we are talking about setting standards and 
that kind of thing. Are you aware of such a thing, a 
governmental software for records management archiving? Mr. 
Sprehe had mentioned that as well.
    Mr. Lysakowski. I am not aware of any software program 
freely from the government.
    Mrs. Miller. Mr. Sprehe, are you aware of any software that 
the government agency would utilize for standards uniformity?
    Mr. Sprehe. I am not.
    Mrs. Miller. You mentioned, doctor, as well about NARA 
being underfunded, and I think you mentioned the amount of what 
their funding actually was in that. It would seem that it is 
very important that we identify in any funding request, when we 
talk about dollars here, from the congressional standpoint 
certainly, that we put in place in a business plan--as a plan 
that archiving for every agency, that records management, all 
of this would be a part of a business plan before appropriators 
would talk about funding particular projects for any agency as 
well.
    And Mr. Sprehe used the example of Yucca Mountain. I think 
he used two examples. I forget the other one that you 
mentioned. That they had actually included that in their 
business plan.
    Is that a recommendation that you would make to the 
Congress that in any business plan that they should put those 
kinds of critical portions in there?
    Mr. Sprehe. Most certainly, yes.
    Mrs. Miller. Do you have any comment, Doctor?
    Mr. Lysakowski. Yes. I was advocating that you actually add 
at least one new section to exhibit 300 that requires during 
the acquisition process that vendors--at least three to five 
vendors demonstrate interoperability of archival information 
packets before you make any single purchase. Thereby, you set 
up an insurance policy for all congressional systems.
    We have successfully used a strategy in industry for 
specific analytical techniques, mass spectrometry in particular 
is a good example. Dow Chemical wanted to purchase a mass 
spectrometry system, an instrument and the data system that 
goes along with it, $150,000 purchase, but, as a condition of 
the procurement, they short-listed the top three vendors, and 
they said, OK, we want you all to show us interchange of the 
mass spectral data sets among all three of you before we buy 
from any one of you.
    Well, it took 2 weeks to write the code by one programmer, 
2 weeks to distribute it to the other two vendors and embed it 
in their products, and the demonstration happened within 30 
days. Now, that was for $150,000 procurement.
    There was a specification that already existed, but it was 
not a standard and the vendors did not implement it. But if 
there is a specification, it is trivial for vendors to 
implement it; and on the last page of my testimony document, I 
state that vendors will use the lack of a specification as an 
excuse for creating proprietary file formats and buyers give up 
their power at the most critical moment by not demanding 
interoperability demonstrations.
    Mrs. Miller. I would be interested to know from the 
witnesses in the middle there, Ms. Wojcik from Michigan and 
also Mr. Naworocki from Virginia, do you--when you're making 
your funding requests to your appropriators, to your 
legislature for your work, do you put in as part of your 
business plan the kinds of funding that is necessary for 
records management and for archiving? Do you make that a big 
part of your business case? Do you find that there is enough 
attention being paid to what is necessary to actually archive 
these kinds of things?
    Ms. Wojcik. The State of Michigan does not require that 
record retention be addressed in business plans. We did draft a 
policy that's published in the Department of Management and 
Budget's administrative manual that requires that record 
retention be identified during the procurement of new systems, 
but, unfortunately, that has not been implemented. We do see 
that--if it was implemented systematically, it would certainly 
help us identify how long records need to be retained and which 
ones need to be preserved.
    Mr. Sprehe. If I could add to my comment, exhibit 300 of 
the OMB circular does mention records but only with respect to 
the Government Paperwork Elimination Act. The problem with that 
is GPEA is a very narrow act. It only affects information 
collected from the public. If you think of the Department of 
Defense, which has probably tens of thousands of IT systems, 
DOD collects very little information from the public, and all 
those other systems that may be producing or processing 
records, they don't pay any attention to records management.
    Mrs. Miller. Not to interrupt, but there I think is where 
you mentioned the cultural chasm, I think is the way that you 
had put it, between historians, perhaps, maybe librarians and 
IT, where you have people who are historians wanting to make 
sure that everything is archived properly and some IT people 
perhaps with the view that it happened, get over it, and not 
wanting to keep it.
    So how you bridge those, that may be another question. I'll 
let Mr. Naworocki respond to the first one first.
    Mr. Naworocki. Sure. Within the State of Virginia, working 
very closely with the various IT agencies in order to try to 
embed records management into that, it hasn't always been 
successful. I think our biggest problem has been simply the 
fact that Virginia has had a severe budget crisis over the last 
2 years, and that's overwhelmed it. But by working very closely 
with IT both in local agencies and on the statewide version in 
order to try to push that--I think it's very true there's a 
cultural disconnect. People assume, because it's electronic, 
it's not a record, or they just think it's too much trouble.
    I think that possibly one of the areas that we need to work 
in is not to work on very specific projects but rather to take 
a look at how we can leverage the power of the States and the 
Government--the Federal Government in order to talk to some of 
the software manufacturers about embedding it.
    I'm just thinking, well if we can convince Bill Gates it 
was worth a few bucks to him to embed records management and to 
award every other product he developed, we wouldn't have a 
problem--or archival, actually. That's literally when it comes 
down to. Whenever you have to graft something on, it becomes a 
kludge and just doesn't work. It needs to be embedded in the 
original activity in order to make it function, really.
    Mrs. Miller. Do you have any comments on how we might 
bridge that cultural chasm there with--how can the Federal 
Government assist in that kind of a thing in setting out 
standards? As you mentioned, it should be embedded in the 
original technology. Is there something that we can do to 
bridge that?
    Mr. Naworocki. You're the 800 pound gorilla. Whatever you 
guys decide, they are going to follow.
    Once again, the most important thing is that the Federal 
Government has to demonstrate a concern. They have to 
demonstrate a commitment to that, and then that flows from 
that. I think it also needs to be remembered that, really, it 
should not be just strictly what the Federal Government does, 
because what may work for you may not work for us, but rather 
if you look at it as a collaboration among private industry, 
the States, local governments and the Federal Government, I 
think certainly, as you continue your work in this project, you 
should take a look at what is being done in those other areas 
in order to determine what is the best practice. Very simply, 
just because it's been done in NARA for the last 50 years 
doesn't always mean it's probably the best thing to be done.
    Ms. Wojcik. You know, this is a technology problem, and 
it's going to need some type of technology solution, and the 
people who create that technology are part of that solution. 
Having tools is just one part, but there's also that cultural 
issue, and I think we need to see more accountability from the 
top down, where, you know, administrators, managers are 
accepting that responsibility, acknowledging it, are fully 
aware of the consequences of not taking responsibility for both 
records management and records preservation. Working form the 
bottom up isn't going to solve anything.
    Mrs. Miller. Working from the top down and setting that 
kind of standard I think is very important.
    I just mention a personal example that I have within my own 
office, but I'd like to address this question to the State 
librarian. Are you familiar with--libraries I think with the 
advent of the Internet and all this electronic, people thought, 
well, geez, no one will read books anymore, that libraries 
would lose their value, that they would go by the wayside. But 
in fact I think libraries have been very much on the leading 
edge of using electronics and reaching out to the community and 
in so many different ways.
    Are you familiar with the digital library research that's 
being conducted by the Library of Congress? And, if so, how 
does the Library of Congress--I'm sure you have your national 
association--how does that filter through the libraries as far 
as, again, a mix of cooperation between the libraries and the 
historians?
    Mr. Naworocki. I'm not the State librarian. I work in the 
records, but I understand the library process. I think what 
happens also is there's a number of different government 
agencies for different ways, and the Library of Virginia just 
as the national--the Library of Congress, we also have our own 
digital library project, and that is a very important part 
because we have very unique items, and through the Internet, 
through digitization, we're able to spread that information, 
make it available. So that someone who is doing genealogical 
research in their jammies in Australia--they don't have to make 
that trip.
    I think it's very important that both the archival and the 
records management world also understand what is being done in 
the digital library arena, because they're doing some very 
important work on access and how to obtain access and indexed 
material that often we don't think about on our side. I think 
sometimes I really would love to just take all the research 
that is being done, throw it in a blender and hope that the 
answers come out, but I think oftentimes we stovepipe but not 
always talk to each other, and we need to do more talking.
    But, yes, it's filtering down. I think many State 
libraries, local libraries are working on digital projects and, 
you know, preserving and making accessible information that 
otherwise would be totally inaccessible, except for those few 
folks who could make it to the library.
    Mrs. Miller. Well, as we're getting into the lunch hour, 
this will be my final question for the panel. You were all here 
for the first panel, and I think we are just trying to get to 
the crux of the problem here of trying to determine what kinds 
of records really need to be archived and what is the best 
practices. I remember in specific Ms. Koontz from the first 
panel had made a comment I think about Mr. Sprehe, that you had 
developed some preliminary models for recognizing the best 
methods for records management. Perhaps you could elaborate a 
little bit on that, if you would, sir.
    Mr. Sprehe. Thank you. I put a little bit of that into my 
testimony.
    One of the things that I learned and that I guess the team 
learned in this study of transitioning from physical to 
electronic records management--and we have applied the metaphor 
of a capability maturity model but only as a metaphor. The 
strategic advantage was that it speaks to the IT community. 
They know what that is. My view is that we have placed stress 
to a great degree on the bad things that will happen to you if 
you do poor records management and that the costs and risk--and 
that has limited appeal to top leadership in any enterprise, 
including Federal agencies.
    What we discovered is--and which I tried to present with 
the concept of leveraging the records management investment is 
that if you do good records management, very good things happen 
to you beyond records management. It helps you do other 
business functions far better, more efficiently and 
effectively. That grabs the attention of top leadership.
    In a recent presentation commending the ADAMS system at the 
Nuclear Regulatory Commission, the recipient from NRC said, you 
know, it took us a long time to get our electronic records 
management system into the shape it is in today. Now what's 
happening is that, as other systems are developed in our 
agency, those IT managers are saying, and we want a system just 
like ADAMS, because they understand that if you can grab 
instantaneously yesterday's records and all the way back 
electronically, it's an enormous asset that they should build 
into their application.
    Mrs. Miller. Thank you.
    Well, I certainly want to thank you all for attending 
today. It has been fascinating. It really is quite a 
fascinating subject that we all struggle with, with our 
changing world and changing technology and how we best utilize 
it for everyone.
    Is there anything that any one of you four would like to 
add for the record that we didn't ask you or questions or input 
that you would like to put in as part of the record?
    Mr. Naworocki. If I might just briefly to touch on two 
points. One is accountability. And I think working with the GAO 
and within the State of Virginia we're looking to work with our 
accounting agency in order to develop that accountability. But, 
also, we need to understand that everyone will have to become 
their own records manager, and it's going to require a lot of 
training and a lot of understanding on behalf of folks to do 
that, and I think it's a long road ahead, but it really is 
going to require a great deal of education as well as the 
technological capabilities.
    Thank you.
    Mrs. Miller. Thank you all so very, very much for coming.
    The record will be held open for 2 weeks for submission of 
additional testimony or questions, and we'll be happy to have 
those given to the subcommittee as well.
    At this time, the hearing will be adjourned. Thank you.
    [Whereupon, at 12:12 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T3006.070

[GRAPHIC] [TIFF OMITTED] T3006.071

[GRAPHIC] [TIFF OMITTED] T3006.072

[GRAPHIC] [TIFF OMITTED] T3006.073

[GRAPHIC] [TIFF OMITTED] T3006.074

[GRAPHIC] [TIFF OMITTED] T3006.075

[GRAPHIC] [TIFF OMITTED] T3006.076

[GRAPHIC] [TIFF OMITTED] T3006.077

[GRAPHIC] [TIFF OMITTED] T3006.078

[GRAPHIC] [TIFF OMITTED] T3006.079

[GRAPHIC] [TIFF OMITTED] T3006.080

[GRAPHIC] [TIFF OMITTED] T3006.081

[GRAPHIC] [TIFF OMITTED] T3006.082

[GRAPHIC] [TIFF OMITTED] T3006.083

[GRAPHIC] [TIFF OMITTED] T3006.084

[GRAPHIC] [TIFF OMITTED] T3006.085

[GRAPHIC] [TIFF OMITTED] T3006.086

[GRAPHIC] [TIFF OMITTED] T3006.087

[GRAPHIC] [TIFF OMITTED] T3006.088

[GRAPHIC] [TIFF OMITTED] T3006.089

[GRAPHIC] [TIFF OMITTED] T3006.090

[GRAPHIC] [TIFF OMITTED] T3006.091

[GRAPHIC] [TIFF OMITTED] T3006.092

[GRAPHIC] [TIFF OMITTED] T3006.093

[GRAPHIC] [TIFF OMITTED] T3006.094

[GRAPHIC] [TIFF OMITTED] T3006.095

[GRAPHIC] [TIFF OMITTED] T3006.096

[GRAPHIC] [TIFF OMITTED] T3006.097

[GRAPHIC] [TIFF OMITTED] T3006.098

[GRAPHIC] [TIFF OMITTED] T3006.099

[GRAPHIC] [TIFF OMITTED] T3006.100

[GRAPHIC] [TIFF OMITTED] T3006.101

[GRAPHIC] [TIFF OMITTED] T3006.102

[GRAPHIC] [TIFF OMITTED] T3006.103

[GRAPHIC] [TIFF OMITTED] T3006.104

[GRAPHIC] [TIFF OMITTED] T3006.105

[GRAPHIC] [TIFF OMITTED] T3006.106

[GRAPHIC] [TIFF OMITTED] T3006.107

[GRAPHIC] [TIFF OMITTED] T3006.108

[GRAPHIC] [TIFF OMITTED] T3006.109

[GRAPHIC] [TIFF OMITTED] T3006.110


</pre></body></html>
